                                  NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARI-INGTON, VIRGINIA 22230




        OFFICE OF
    INSPECTOR GENERAL




 MEMORANDUM

  Date:          May 17,2000

  To:

  From:

  Re:            Case close-oa


   We received information fiom the United States Attorney's Office in

                    a
   were investigating                                                       W
                                  in regard to several U.S. A.I.D. contracts. e coordinated
   with A.1.D.-OIG an discovered that there was a similar NSF grant. We investigated
                                                                                       they

   possible concealment of the A.I.D. contracts to the NSF program office and found that
d-                verbally tell NSF that he was doing a similar project f6r AID. We found no
   additional problems with the NSF Grant to                 In consultation with the AUSA,
   our office concluded that NSF nexus was i onnational to the A.I.D. case but not directly
   related. The AUSA agreed that there was no reason to continue to keep the NSF case
   open at this time but stated that she would keep us informed of the status of AID case.
   This case is closed.




           (703) 306-2100 OIG Anonymous Hotline (800) 428-2189      http://www.nsf.gov/oig/oig
                                 Electronic mail hotline: oig@nsf.gov
